TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Inconsistent Adherence to Quality
                      Requirements Continues to Affect the
                         Accuracy of Some Tax Returns
                          Prepared at Volunteer Sites



                                      September 16, 2013

                              Reference Number: 2013-40-110




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


INCONSISTENT ADHERENCE TO                            were prepared incorrectly. This is a two-
QUALITY REQUIREMENTS CONTINUES                       percentage-point increase over the 49 percent
TO AFFECT THE ACCURACY OF SOME                       accuracy rate for the same number of returns in
TAX RETURNS PREPARED AT                              the 2012 Filing Season.
VOLUNTEER SITES                                      The 19 incorrect tax returns resulted from
                                                     incorrect application of the tax law, insufficient
                                                     requests for information during the intake/
Highlights                                           interview process, or lack of adherence to
                                                     quality review requirements.
Final Report issued on
                                                     The IRS continues to refine its anonymous
September 16, 2013
                                                     shopping process to evaluate the accuracy of
                                                     tax returns prepared at Volunteer Program sites.
Highlights of Reference Number: 2013-40-110          This process reported a 49 percent accuracy
to the Internal Revenue Service Commissioner         rate for the 43 tax returns prepared, which
for the Wage and Investment Division.                compares with the 51 percent accuracy rate
IMPACT ON TAXPAYERS                                  TIGTA found. The IRS’s anonymous shopping
                                                     also found the same causes that TIGTA
The Volunteer Program provides no-cost               reported for the inaccurately prepared tax
Federal tax return preparation and electronic        returns.
filing to underserved segments of the population
of individual taxpayers, including low- to           WHAT TIGTA RECOMMENDED
moderate-income, elderly, disabled, and limited-     TIGTA recommended that the IRS ensure that
English-proficient taxpayers. However, ensuring      volunteer return preparers, quality reviewers,
that tax returns are accurately prepared remains     and site coordinators annually complete
a challenge for the Volunteer Program.               intake/interview and quality review training. In
Problems with the accuracy of some of the tax        response to this report, the IRS agreed to the
returns affect the taxes owed and refunds            recommendation and plans to require that all
received by these taxpayers.                         volunteer instructors, return preparers, quality
WHY TIGTA DID THE AUDIT                              reviewers, and site coordinators complete
                                                     intake/interview and quality review training
This was a follow-up audit to our prior reviews to   annually.
determine whether taxpayers visiting IRS
Volunteer Program sites receive quality service,
including accurately prepared tax returns.
WHAT TIGTA FOUND
The IRS continues to emphasize to volunteers
the necessity of reviewing the intake/interview
sheets with taxpayers during tax return
preparation. In addition, training and resource
materials were adjusted to clarify and
underscore the due-diligence obligations of
volunteers. However, there were still accuracy
problems with some of the tax returns prepared
for TIGTA auditors making anonymous visits to
Volunteer Program sites.
Of the 39 tax returns prepared for auditors
during the 2013 Filing Season, 20 (51 percent)
were prepared correctly and 19 (49 percent)
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 16, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Inconsistent Adherence to Quality Requirements
                             Continues to Affect the Accuracy of Some Tax Returns Prepared at
                             Volunteer Sites (Audit # 201340001)

 This report presents the results of our review to determine whether taxpayers visiting Internal
 Revenue Service (IRS) Volunteer Program sites receive quality service, including accurately
 prepared tax returns. This was a follow-up audit to prior Treasury Inspector General for Tax
 Administration reviews and is part of our Fiscal Year 2013 Annual Audit Plan. This audit
 addresses the major management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix X.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me if you have questions or Russell P. Martin, Acting Assistant
 Inspector General for Audit (Returns Processing and Account Services).
                                  Inconsistent Adherence to Quality Requirements
                                     Continues to Affect the Accuracy of Some
                                      Tax Returns Prepared at Volunteer Sites




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Interview and Quality Review Procedures Are Often Not
          Followed, Which Affects the Accuracy of Tax Returns ............................... Page 6
                    Recommendation 1:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Cities and States Visited to Have Tax Returns Prepared ..... Page 16
          Appendix V – Accuracy Rate by Tax Topic ................................................. Page 17
          Appendix VI – Intake/Interview & Quality Review Sheet ........................... Page 18
          Appendix VII – Volunteer Standards of Conduct
          Agreement – VITA/TCE Programs .............................................................. Page 22
          Appendix VIII – General Characteristics of Tax Returns
          Prepared by the Volunteer Program During Calendar Year 2013 ................ Page 24
          Appendix IX – Treasury Inspector General for Tax Administration
          Audit Reports on the Volunteer Tax Return Preparation Program ............... Page 26
          Appendix X – Management’s Response to the Draft Report ....................... Page 27
        Inconsistent Adherence to Quality Requirements
           Continues to Affect the Accuracy of Some
            Tax Returns Prepared at Volunteer Sites




                Abbreviations

IRA       Individual Retirement Arrangement
IRS       Internal Revenue Service
SPEC      Stakeholder Partnerships, Education, and Communication
TCE       Tax Counseling for the Elderly
TIGTA     Treasury Inspector General for Tax Administration
VITA      Volunteer Income Tax Assistance
                             Inconsistent Adherence to Quality Requirements
                                Continues to Affect the Accuracy of Some
                                 Tax Returns Prepared at Volunteer Sites




                                           Background

The Internal Revenue Service (IRS) Volunteer Program plays an important role in facilitating
participation in the tax system. It provides no-cost Federal tax return preparation and electronic
filing to underserved segments of individual taxpayers, including low- to moderate-income,
elderly, disabled, and limited-English-proficient taxpayers. It includes sites operated in
partnership with the military and with various community-based organizations. The Volunteer
Program is comprised of the Volunteer Income Tax Assistance (VITA) Program, including the
VITA Grant Program, and the Tax Counseling for the Elderly (TCE) Program.
The VITA Program was originated in 1969 due to enactment
of the Tax Reform Act of 1969 and an increased emphasis on                        Volunteers play an
taxpayer education programs.1 The IRS has placed continual                  increasingly important role
emphasis on expanding the VITA Program through increased                     in facilitating participation
recruitment of various religious, social and nonprofit,                           in the tax system.
corporate, financial, educational, and government
organizations; involvement of the military on a national level;
and expansion of assistance provided to the limited-English-
proficient community.
The TCE Program began with the Revenue Act of 1978,
which authorized the IRS to enter into agreements with private or nongovernmental public
nonprofit agencies and organizations to provide training and technical assistance to volunteers
who provide free tax counseling and assistance to elderly individuals in the preparation of their
Federal income tax returns.2 The law authorizes an appropriation of special funds, in the form of
grants, to provide tax assistance to persons age 60 and older. The IRS receives the funds as a
line item in the budget appropriation. The total funds are distributed to the sponsors for their
expenses.3
Since Fiscal Year 2009,4 the IRS has granted funds for the VITA Grant Program. For the
2013 Filing Season,5 206 organizations were awarded $12.1 million in matching grants. The
grants are to be used to increase the capacity to file tax returns electronically and enhance
training of volunteers at VITA sites.


1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  Pub. L. No. 95-600, 92 Stat. 2810.
3
  A sponsor would be an entity similar to the AARP (formerly the American Association of Retired Persons).
4
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
5
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                        Page 1
                                 Inconsistent Adherence to Quality Requirements
                                    Continues to Affect the Accuracy of Some
                                     Tax Returns Prepared at Volunteer Sites



For the 2013 Filing Season, there were a total of 13,081 Volunteer Program sites. As of
April 17, 2013, volunteers prepared almost 1.5 million individual income tax returns at VITA
and Military VITA sites and more than 1.4 million at TCE/AARP sites. Figure 1 provides a
breakdown of the Volunteer Program and the percentage of tax returns prepared at the different
types of program sites during the 2013 Filing Season.
                      Figure 1: Percentage of Tax Returns Prepared at the
                     Volunteer Program Sites During the 2013 Filing Season

                                         No Program                            TCE
                                          Identified                        (non-AARP)
                                            0.6%                               1.2%




                                             AARP                           VITA
                                             47.1%                          45.5%




                                      Military VITA
                                           5.7%
              Source: Individual Return Transaction File.6

The IRS Stakeholder Partnerships, Education, and Communication (SPEC) function is
responsible for providing oversight for the Volunteer Program, which includes determining
policies and procedures, developing products and training material, and monitoring and
managing Volunteer Program activity. The SPEC function’s concept of operations includes
looking for opportunities to assist third parties with helping taxpayers understand and meet their
tax obligations by promoting collaboration among tax practitioners, tax preparers, and
community partners to support the Volunteer Program.




6
    The Individual Return Transaction File contains individual tax return data.
                                                                                            Page 2
                                 Inconsistent Adherence to Quality Requirements
                                    Continues to Affect the Accuracy of Some
                                     Tax Returns Prepared at Volunteer Sites



Tax scenarios used by auditors reflected tax topics volunteers were trained to
handle for taxpayers seeking assistance from the Volunteer Program
Three scenarios were designed for Treasury Inspector General for Tax Administration (TIGTA)
auditors to use as they posed as taxpayers having tax returns prepared by volunteers (referred to
as shopping). These scenarios were developed to use characteristics of taxpayers who visit
Volunteer Program sites to have a tax return prepared. The scenarios included only tax topics for
which the volunteers had been trained. In addition, although most tax returns prepared by
volunteers are prepared for taxpayers who file with no dependents, auditors used two scenarios that
included tax topics dealing with dependents and related tax credits. These two scenarios included
tax topics dealing with dependents and related tax credits to assess the volunteers’ use of the
tools the SPEC function created to ensure that accurate tax returns are prepared.
Analysis of tax returns prepared in the 2013 Filing Season as of April 17, 2013, identified that
dependent-related credits accounted for $1.7 billion (43 percent) of the $3.9 billion in tax refunds
issued to the 2.9 million taxpayers who used Volunteer Program tax preparation assistance.
These credits—the Earned Income Tax Credit, the Child Tax Credit, and the Additional Child
Tax Credit—are available to taxpayers who have dependents. Figure 2 shows the amount of
refunds or balances due and credits claimed by taxpayers on Tax Year 2012 returns prepared by
the Volunteer Program.
                      Figure 2: Refunds or Balances Due and Credits Claimed
                       Generated From Tax Returns Filed as of April 17, 2013,
                                Prepared by the Volunteer Program 7

              Refund Due/                   Dollar               Tax Return          Percentage of Tax
              Balance Due                   Totals                  Volume              Return Volume
              Refunds Due              $3,930,063,154              2,430,493                  83.7%
              Balances Due               $137,042,003                192,772                   6.6%
              Breakeven                               $0             280,560                   9.7%

               Credits Claimed                         Dollar Totals             Tax Return Volume
              Earned Income Tax Credit               $1,106,534,596                      698,383
              Additional Child Tax Credit              $358,946,402                      308,676
              Child Tax Credit                         $224,420,861                      225,776
              Total                                  $1,689,901,859
             Source: Analysis of Tax Year 2012 tax returns filed as of April 17, 2013.




7
    See Appendix VIII for tables showing the general characteristics of tax returns prepared by the Volunteer Program.
                                                                                                              Page 3
                         Inconsistent Adherence to Quality Requirements
                            Continues to Affect the Accuracy of Some
                             Tax Returns Prepared at Volunteer Sites



The following are the three scenarios used by auditors during the 2013 Filing Season:
Scenario 1 – The taxpayer was single, had never been married, and lived with his or her
             sibling. The taxpayer had one child or grandchild, age eight, who lived with the
             taxpayer in the home during the summer, about three months a year. The child
             lived with the mother/father during the school year, about nine months of the
             year. During Tax Year 2012, the taxpayer worked at a school as a teacher’s aide;
             at a home improvement store (was laid off); and at a local retail store. Total
             income reported on the 2012 Forms W-2, Wage and Tax Statement, was $17,034.
             The taxpayer received a 2012 1099-INT, Interest Income Statement, totaling
             $7.35. The taxpayer spent $350 for school supplies. The taxpayer won $1,900
             playing the slot machines at a casino over the 4th of July holiday (won on July 5);
             $285 in Federal income tax was withheld from the winnings.
              An accurately prepared tax return would result in the taxpayer receiving a refund
              of $311. The tax return preparer would have correctly determined that the
              taxpayer’s filing status was Single. The taxpayer did not provide more than half
              of the cost of keeping up a home for a qualifying child, and the taxpayer could not
              claim the child as a dependent for Child Tax Credit purposes. The Earned Income
              Tax Credit would not be available to the taxpayer because the child did not live
              with the taxpayer for more than half of the year and the earned income exceeded
              the maximum allowable amount for a single taxpayer with no qualifying
              dependents.
Scenario 2 – The taxpayer was divorced and lived with his or her nine-year-old child or
             grandchild. The taxpayer had wages reported on 2012 Forms W-2 totaling
             $29,232. The taxpayer was paid biweekly and contributed $1,263 to a 401(k)
             retirement plan. The taxpayer received a 2012 Form 1099-INT totaling $4.13,
             received $300 a month for child support, and had dependent care expenses
             totaling $1,370.
              An accurately prepared tax return would result in the taxpayer receiving a refund
              of $2,761. The tax return preparer would have correctly determined that the
              taxpayer’s filing status was Head of Household and the dependency exemption
              could be claimed. In addition, the taxpayer qualified for an Earned Income Tax
              Credit of $1,230, a Child Tax Credit of $823, an Additional Child Tax Credit of
              $177, a Child and Dependent Care Credit of $370, and a Retirement Savings
              Contributions Credit of $126.
Scenario 3 – The taxpayer was single with no dependents and shared an apartment with a
             friend. The taxpayer was employed at a home improvement center and had wages
             reported on the 2012 Form W-2 in the amount of $18,435. The taxpayer was also
             self-employed and earned a total of $17,800 and had expenses totaling $4,857.

                                                                                          Page 4
                              Inconsistent Adherence to Quality Requirements
                                 Continues to Affect the Accuracy of Some
                                  Tax Returns Prepared at Volunteer Sites



                  A correctly prepared tax return would result in the taxpayer owing $3,320. The
                  preparer would have correctly determined that the taxpayer’s filing status was
                  Single.

Prior TIGTA reviews identified concerns with the accuracy of tax returns prepared
at Volunteer Program sites
We have continually reported that Volunteer Program sites are inaccurately preparing tax
returns. Inaccurate tax returns result from volunteers not obtaining sufficient information from
the auditors to apply the tax law correctly and volunteers not always following intake/interview
and quality review guidelines.8 We have recommended that the IRS continue to emphasize the
necessity of reviewing Form 13614-C, Intake/Interview & Quality Review Sheet,9 with taxpayers
during tax return preparation and establish due diligence guidelines for volunteers.
This review was performed at the SPEC function in the Wage and Investment Division in
Atlanta, Georgia, during the period January through June 2013. This audit included an
assessment of tax returns prepared at VITA sites and TCE/AARP sites. From February through
April 2013, TIGTA auditors performed 39 anonymous visits and had 39 tax returns prepared at
39 judgmentally selected Volunteer Program sites located in 10 States.10 Three sites were
selected in five States, six sites were selected in three States, four sites were selected in one
State, and two sites were selected in one State. Appendix IV provides a list of the 10 States and
the specific cities where the sites were located.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




8
  See Appendix IX for a list of all prior reports.
9
  See Appendix VI for a copy of the Intake/Interview & Quality Review Sheet.
10
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                              Page 5
                                     Inconsistent Adherence to Quality Requirements
                                        Continues to Affect the Accuracy of Some
                                         Tax Returns Prepared at Volunteer Sites




                                           Results of Review

Interview and Quality Review Procedures Are Often Not Followed,
Which Affects the Accuracy of Tax Returns
The IRS continues to emphasize to volunteers the necessity of reviewing Form 13614-C with
taxpayers during tax return preparation. In addition, training and resource materials were
clarified to underscore the due diligence obligations of volunteers. However, the accuracy rate
continues to be low for tax returns prepared for TIGTA auditors making anonymous visits to
VITA sites. Of the 39 tax returns prepared for auditors during the 2013 Filing Season,
20 (51 percent) were prepared correctly and 19 (49 percent) were prepared incorrectly. This is a
two percentage point increase over the 49 percent accuracy rate in the 2012 Filing Season. Our
results cannot be used to project to the population of tax returns prepared at VITA sites because
the tax returns we had prepared were included as part of a judgmental sample. A judgmental
sample is a nonstatistical sample, the results of which cannot be used to project to the population.
If the 19 incorrect tax returns had been filed, 11 taxpayers would not have been refunded a total
of $3,589 to which they were entitled, five taxpayers would have owed a total of $1,088 in tax
and/or penalties more than they should have owed, two taxpayers would have received a refund
of $260 more than the amount to which they were entitled, and one taxpayer would have owed
$956 less than he or she should have owed. Figure 3 shows the accuracy rates of tax returns
prepared for auditors during Filing Seasons 2004 through 2013.
      Figure 3: Tax Return Accuracy Rates for the 2004–2013 Filing Seasons

                       100%
                                                                              90%
       Accuracy Rate




                        80%                                69%
                                                   56%           59%
                        60%
                                            39%
                                     34%
                        40%                                                              49%
                        20%     0%                                                                   51%

                         0%                                                     39%
                              2004 2005
                                        2006 2007
                                                      2008   2009      2010    2011   2012    2013
                                           Filing Season

  Source: Tax returns prepared for our auditors by volunteers during the 2004–2013 Filing Seasons.



                                                                                                      Page 6
                           Inconsistent Adherence to Quality Requirements
                              Continues to Affect the Accuracy of Some
                               Tax Returns Prepared at Volunteer Sites



The 19 incorrect 2013 Filing Season tax returns were incorrectly prepared because volunteers did
not apply the tax law correctly, obtain sufficient information from the auditors during the
intake/interview process, or follow quality review requirements when preparing tax returns.
Lastly, when using Scenario 3, auditors expected the volunteers to educate the auditor on the
estimated tax penalty because the scenario resulted in tax being owed. Volunteer Program
guidelines instruct volunteers not to calculate or impose the penalty. However, the volunteer
should explain that the penalty would not be added to the tax return by the volunteer, but that the
IRS would calculate the penalty and could send a subsequent bill. Only one volunteer educated
the shopper about the estimated tax penalty. Figure 4 shows the accuracy rate by scenario.
                              Figure 4: Tax Return Accuracy Rates
                             for the 2013 Filing Season by Scenario

                                                       Number of Tax
                                                     Returns Prepared           Accuracy
                Tax Scenario Used                    Using the Scenario           Rate
                Scenario 1                                     13                  31%
                Scenario 2                                     13                  69%
                Scenario 3                                     13                  54%
                Total Accuracy                                 39                  51%
               Source: Tax returns prepared for auditors during the 2013 Filing Season.

Four tax topics contributed to most of the errors
Of the 16 tax topics used in the three scenarios, the following four tax topics contributed to the
most errors and caused a significant decrease in the overall accuracy rate. See Appendix V for
the accuracy rates of all tax topics.
      The Individual Retirement Arrangement (IRA) deduction: 46 percent accuracy
       rate. Volunteers did not include this deduction on the inaccurately prepared tax returns
       because they did not completely review the Form 13614-C. Taxpayers can reduce
       taxable income by contributing money to a traditional IRA. Contributions to IRAs can be
       made as late as the first due date of a tax return and can be considered retroactive to the
       previous tax year. Contributions up to certain limits can be subtracted from adjusted
       gross income.
      The Educator Expense deduction: 54 percent accuracy rate. Volunteers did not
       include this deduction on the inaccurately prepared tax returns because they did not
       completely review the Form 13614-C. This deduction is available to eligible educators in
       public or private elementary or secondary schools. To be eligible, a person must work at
       least 900 hours during a school year as a teacher, instructor, counselor, principal, or aide.
       Educators may subtract up to $250 of qualified expenses when figuring their adjusted

                                                                                             Page 7
                              Inconsistent Adherence to Quality Requirements
                                 Continues to Affect the Accuracy of Some
                                  Tax Returns Prepared at Volunteer Sites



           gross income. This deduction is available whether or not the taxpayer itemizes
           deductions on Form 1040, U.S. Individual Income Tax Return, Schedule A, Itemized
           Deductions.
          The Retirement Savings Contribution Credit: 62 percent accuracy rate. Volunteers
           did not include this deduction on the inaccurately prepared tax returns because they did
           not completely review the Form 13614-C. Eligible taxpayers can claim this credit if they
           meet specific income qualifications and made a contribution to a qualified IRA, 401(k),
           or certain other retirement plans. The credit is worth up to $1,000 ($2,000 if filing
           jointly). The credit is a percentage of the qualifying contribution amount, with the
           highest rate for taxpayers with the least income.
          The Schedule C Business Expense: 69 percent accuracy rate. Volunteers did not
           properly calculate total expenses because they did not always add mileage expenses to
           the supply costs to obtain total expenses. Taxpayers report income or loss from operating
           a business or practicing a profession as a sole proprietor on Form 1040 Schedule C, Profit
           and Loss From Business. An activity qualifies as a business if the primary purpose for
           engaging in the activity is for income or profit and the taxpayer is involved in the activity
           with continuity and regularity.

Tax returns were prepared incorrectly because volunteers did not always follow
interview and quality review requirements
Each taxpayer using the services offered through the Volunteer Program should be confident that
they are receiving accurate tax return preparation and quality service. To establish this
confidence and trust, volunteers are required to complete and sign the Form 13615, Volunteer
Standards of Conduct Agreement – VITA/TCE Programs, and maintain the highest standards of
ethical conduct while providing quality service.11 The first standard of conduct is that the
volunteer must follow the Quality Site Requirements. Quality Site Requirements include
mandatory requirements of an effective interview with the taxpayer and a quality review of the
return. However, volunteers did not always comply with these requirements, which resulted in
inaccurately prepared tax returns.
Intake and interview guidelines were not always followed.
For all 39 (100 percent) tax returns prepared, a Form 13614-C was prepared as required.
However, for 15 (38 percent) of the tax returns, volunteers did not thoroughly review the
Forms 13614-C or fully use the form to prepare the tax returns. Of the 15 tax returns prepared
by these volunteers, 12 (80 percent) were prepared inaccurately.




11
     See Appendix VII for the Volunteer Standards of Conduct Agreement – VITA/TCE Programs.
                                                                                                 Page 8
                           Inconsistent Adherence to Quality Requirements
                              Continues to Affect the Accuracy of Some
                               Tax Returns Prepared at Volunteer Sites



In addition, for the 39 sites visited:
       25 (64 percent) volunteers did not explain to the auditor that they were ultimately
        responsible for the tax return.
       Seven (18 percent) tax returns were not quality reviewed.
       One (3 percent) volunteer did not verify the auditor’s identity.
Form 13614-C Sections A and B guide the volunteer through the interview with the taxpayer and
allow the volunteer and taxpayer to gather all necessary information needed to complete an
accurate tax return. The intake and interview process must include all of the following:
       Verifying the identity and address of the taxpayer(s).
       Advising taxpayers of their ultimate responsibility for information on the return and that
        by signing the return, the taxpayer is guaranteeing under penalty of perjury that they have
        examined the return and its accompanying forms and schedules for accuracy.
       Explaining the tax return preparation process to the taxpayer and encouraging him or her
        to ask questions throughout the interview process.
       Completing Form 13614-C.
       Confirming the taxpayer’s responses provided on the Form 13614-C for completeness
        and accuracy.
       Reviewing supporting documentation and confirming with the taxpayer that all income
        was discussed and noted on the Form 13614-C to ensure that it will be included on the
        tax return.
       Exercising due diligence when preparing tax returns, including asking a taxpayer to
        expand on information that may not appear to be true or accurate.
Quality review guidelines were not always followed.
For each of the 19 tax returns prepared incorrectly, one or more of the quality review
requirements were not followed. For example:
       For 16 (84 percent) incorrect tax returns, quality reviewers did not review the entire
        Form 13614-C.
       For 12 (63 percent) incorrect tax returns, auditors were not involved in the quality review
        process.
       For four (21 percent) incorrect tax returns, no quality review was performed.
For every tax return prepared, volunteers are required to ensure that the tax return is quality
reviewed. Quality reviewers use Form 13614-C, Section C, to confirm that the tax return is free
                                                                                              Page 9
                           Inconsistent Adherence to Quality Requirements
                              Continues to Affect the Accuracy of Some
                               Tax Returns Prepared at Volunteer Sites



from error based on the taxpayer interview, supporting documentation, and completed
Form 13614-C. Figure 5 presents a summary of the Volunteer Program quality review process
requirements.
             Figure 5: Volunteer Program Quality Review Requirements

           A quality review process at each site must be used to confirm that the tax law was
           correctly applied and that the tax return is free from error and has been prepared
           correctly based on all available information. A quality review process at each site
           must contain the following critical components for an effective and thorough
           quality review of the tax return:
           1. The taxpayer should participate in the quality review process to solicit their
              understanding and agreement to the facts of the tax return.
           2. The quality reviewer is required to use Form 13614-C, Section C, during the
              review.
           3. The quality reviewer is required to use the available source documents to
              confirm identity, income, expenses, credits, and deposit/debit information on
              the tax return.
           4. If applicable, the quality reviewer may have to refer to Publication 4012,
              VITA/TCE Volunteer Resource Guide, and/or Publication 17, Your Federal
              Income Tax (For Individuals).


             Source: VITA and TCE Quality Site Requirements – Updates for 2013.

Partner organizations and their volunteers play a significant role in the program. For this reason,
the IRS has taken numerous actions and committed significant resources to developing processes
intended to increase the accuracy of tax returns prepared by volunteers. For example, the
SPEC function issued eight Volunteer Tax and Quality Site Requirement alerts throughout the
2013 Filing Season, including the following alert on March 1, 2013:
       Quality Site Requirements Alert 2013-03 – Intake/Interview and Quality Review
       Process – All volunteer return preparers supporting the VITA and TCE programs must
       use Intake/Interview & Quality Review Sheet (Form 13614-C) for every taxpayer. The
       purpose of an Intake/Interview process is to use the completed intake sheet to initiate a
       conversation between the volunteer and taxpayer that ultimately leads to an accurately
       prepared tax return.
In addition, the IRS created a training document with detailed guidance on the IRS’s
intake/interview and quality review processes. However, the IRS encourages but does not
require volunteer return preparers and quality reviewers to complete this training, nor does the
IRS require site coordinators to complete training on the intake/interview and quality review
guidelines. Considering the number of volunteers and quality reviewers who did not follow the
IRS guidelines and that most of the errors would not have been made or would have been

                                                                                                 Page 10
                         Inconsistent Adherence to Quality Requirements
                            Continues to Affect the Accuracy of Some
                             Tax Returns Prepared at Volunteer Sites



detected had the guidelines been followed, site coordinators should be required to complete
training on these processes. Site coordinators are responsible for overseeing the volunteers’
work and should have a full understanding of the requirements to ensure that volunteers
preparing tax returns and performing quality reviews follow the guidelines.

The IRS continues to refine its anonymous shopping process to assess the
accuracy of tax returns prepared at Volunteer Program sites
The IRS’s SPEC function continues to refine its anonymous shopping process to evaluate the
accuracy of tax returns prepared at Volunteer Program sites. For example, the SPEC function
issues guidance and VITA publications to support the anonymous shopping process, including:
      Pertinent information necessary to conduct a successful site review.
      Details to ensure tax law accuracy and gauge taxpayer experience.
      Quality Site Requirements.
The anonymous shopping process consists of IRS employees posing as taxpayers with
predefined scenarios to have their Federal tax returns prepared. The accuracy rate reported by
this process for the 43 sites visited during the 2013 Filing Season was 49 percent for the 43 tax
returns prepared. This accuracy rate compares with the 51 percent accuracy rate we found. In
addition, the SPEC function’s anonymous shopping found the same causes that we identified for
the inaccurately prepared tax returns.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure that all volunteer return preparers, quality reviewers, and site
coordinators complete intake/interview and quality review training annually.
       Management’s Response: The IRS agreed with this recommendation. IRS
       management will require that all volunteer instructors, return preparers, quality
       reviewers, and site coordinators complete intake/interview and quality review training
       annually.




                                                                                          Page 11
                              Inconsistent Adherence to Quality Requirements
                                 Continues to Affect the Accuracy of Some
                                  Tax Returns Prepared at Volunteer Sites



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers visiting Volunteer Program sites
receive quality service, including accurately prepared tax returns. To accomplish our objective,
we:
I.       Determined if the Volunteer Program sites were accurately preparing individual income
         tax returns based on facts provided by the taxpayers. From a population of 13,081 sites,
         we selected a judgmental sample1 of 39 VITA and TCE/AARP sites nationwide and
         attempted to have a tax return prepared. Due to audit resources, three sites were selected
         in five States, six sites were selected in three States, four sites were selected in one State,
         and two sites were selected in one State.
         Site selection was based on audit resources, proximity of sites to major cities, and
         geographical location of the auditors. In addition, to expand testing to include sites never
         tested, we also eliminated most cities and sites selected in prior audits. We could not
         select a statistical sample due to the volume of sites and geographical location of the sites
         that would need to be selected. Finally, we did not advise the IRS beforehand of which
         sites were included in the testing.
II.      Determined the characteristics of tax returns prepared at the Volunteer Program sites.
         We assessed the reliability of the data by comparing 10 return transactions from the
         Individual Return Transaction File data to the Integrated Data Retrieval System2 and
         determined that the data were sufficiently reliable for purposes of this report.
III.     Determined if the IRS’s anonymous site visit procedures are adequate to test tax law
         accuracy and sufficient to gauge taxpayer experience.
IV.      Followed up on the IRS’s corrective actions to the 2012 Filing Season report’s
         recommendation to ensure that the IRS established guidelines for recommended due
         diligence for volunteers when preparing tax returns.




1
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 12
                         Inconsistent Adherence to Quality Requirements
                            Continues to Affect the Accuracy of Some
                             Tax Returns Prepared at Volunteer Sites



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SPEC function’s policies, procedures,
and practices for preparing tax returns. We evaluated controls by interviewing management and
reviewing policies and procedures. We also conducted tests at Volunteer Program sites.




                                                                                          Page 13
                        Inconsistent Adherence to Quality Requirements
                           Continues to Affect the Accuracy of Some
                            Tax Returns Prepared at Volunteer Sites



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
W. Allen Gray, Director
Paula W. Johnson, Audit Manager
M. Jean Bell, Lead Auditor
Doug Barneck, Senior Auditor
Robert Howes, Senior Auditor
Dave Robben, Senior Auditor
Jerome Antoine, Auditor
Jeremy Berry, Auditor
Tracy Hernandez, Auditor
Nelva Usher, Auditor
Ed Carr, Program Analyst
Ismael Hernandez, Program Analyst
Blanche Lavender, Information Technology Specialist




                                                                                          Page 14
                       Inconsistent Adherence to Quality Requirements
                          Continues to Affect the Accuracy of Some
                           Tax Returns Prepared at Volunteer Sites



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Stakeholder Partnerships, Education and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                    Page 15
                  Inconsistent Adherence to Quality Requirements
                     Continues to Affect the Accuracy of Some
                      Tax Returns Prepared at Volunteer Sites



                                                                       Appendix IV

                   Cities and States Visited
                to Have Tax Returns Prepared

Arizona          Tucson
Florida          Orlando
Georgia          Atlanta, Snellville, Lithonia
Kentucky         Covington, Lexington, Newport, Erlanger, Cynthiana
Massachusetts    Brighton, Brookline, Dorchester
Ohio             Cincinnati, Dayton, Fairfield, Beavercreek, West Milton, Hamilton
Oklahoma         Oklahoma City, Midwest City
Pennsylvania     Philadelphia
Texas            Dallas, Georgetown, Round Rock, Frisco
Washington       Seattle




                                                                                Page 16
                 Inconsistent Adherence to Quality Requirements
                    Continues to Affect the Accuracy of Some
                     Tax Returns Prepared at Volunteer Sites



                                                                                   Appendix V

                Accuracy Rate by Tax Topic

                                                     Number of
                                                    Tax Returns             Percentage
Tax Topic                                          Using Tax Topic           Correct

Additional Child Tax Credit                                13                    92%

Child and Dependent Care Credit                            13                    85%

Child Tax Credit                                           13                    92%

Earned Income Tax Credit                                   13                    85%

Educator Expense                                           13                    54%

Estimated Tax Penalty                                      13                    85%

Exemptions                                                 39                    92%

Filing Status                                              39                    95%

Gambling Winnings                                          13                    92%

IRA Deduction                                              13                    46%

Interest                                                   26                  100%

Retirement Savings Contribution Credit                     26                    62%

Schedule C Expenses                                        13                    69%

Schedule C Income                                          13                    92%

Standard Deduction                                         39                    97%

Wage Income                                                39                  100%

Source: Analysis of tax returns prepared for auditors during the 2013 Filing Season.




                                                                                         Page 17
       Inconsistent Adherence to Quality Requirements
          Continues to Affect the Accuracy of Some
           Tax Returns Prepared at Volunteer Sites



                                                Appendix VI

Intake/Interview & Quality Review Sheet




                                                        Page 18
Inconsistent Adherence to Quality Requirements
   Continues to Affect the Accuracy of Some
    Tax Returns Prepared at Volunteer Sites




                                                 Page 19
Inconsistent Adherence to Quality Requirements
   Continues to Affect the Accuracy of Some
    Tax Returns Prepared at Volunteer Sites




                                                 Page 20
Inconsistent Adherence to Quality Requirements
   Continues to Affect the Accuracy of Some
    Tax Returns Prepared at Volunteer Sites




                                                 Page 21
   Inconsistent Adherence to Quality Requirements
      Continues to Affect the Accuracy of Some
       Tax Returns Prepared at Volunteer Sites



                                           Appendix VII

Volunteer Standards of Conduct
Agreement – VITA/TCE Programs




                                                    Page 22
Inconsistent Adherence to Quality Requirements
   Continues to Affect the Accuracy of Some
    Tax Returns Prepared at Volunteer Sites




                                                 Page 23
                              Inconsistent Adherence to Quality Requirements
                                 Continues to Affect the Accuracy of Some
                                  Tax Returns Prepared at Volunteer Sites



                                                                                            Appendix VIII

                General Characteristics of Tax Returns
                 Prepared by the Volunteer Program 1
                     During Calendar Year 2013

                                                                       Tax Return           Percentage
                Type of Tax Return                                      Volume               of Total

          U.S. Individual Income Tax Return (Form 1040)                2,773,132             95.50%
          U.S. Individual Income Tax Return (Form 1040A)                  69,290              2.39%
          Income Tax Return for Single and Joint Filers With
                                                                          51,745              1.78%
          No Dependents (Form 1040EZ)
          U.S. Income Tax Return for Certain Nonresident Aliens
                                                                            6,374             0.22%
          With No Dependents (Form 1040NR-EZ)
          U.S. Individual Income Tax Return (PC) (Form 1040PC)              2,763             0.10%
          U.S. Nonresident Alien Income Tax Return (Form 1040NR)                 286          0.01%
          U.S. Self-Employment Tax Return – Virgin Islands, Guam,
                                                                                 233          0.01%
          American Samoa (Form 1040-SS)

          U.S. Self-Employment Tax Return – Puerto Rico
                                                                                  ***1***      ***1***
          (Form 1040-PR)



         Refund Due/                  Dollar             Tax Return         Percentage of Tax
         Balance Due                  Totals              Volume             Return Volume

         Refund Due              $3,930,063,154           2,430,493                    83.70%
         Balance Due               $137,042,003            192,772                     6.64%
         Breakeven                             $0          280,560                     9.66%




1
    The IRS Volunteer Program includes the VITA, VITA Grant, and TCE Programs.
                                                                                                         Page 24
                                Inconsistent Adherence to Quality Requirements
                                   Continues to Affect the Accuracy of Some
                                    Tax Returns Prepared at Volunteer Sites



                                                                           Tax Return        Percentage
          Filing Status/Dependent Claims                                    Volume            of Total
          Single                                                           1,731,355              59.62%
          Married Filing Jointly                                             758,519              26.12%
          Head of Household                                                  369,380              12.72%
          Married Filing Separately and Spouse Is Required
                                                                              43,072               1.48%
          to File
          Widow(er) With Dependent Child                                        1,433              0.05%
          Married Filing Separately and Spouse Is Not
                                                                                   66             <0.01%
          Required to File
          Tax Return Prepared With One or More Dependent
                                                                             640,353              22.05%
          Exemptions, Including Parents
          Tax Return Prepared With No Dependent Exemptions                 2,263,472              77.95%



                                                                       Tax Return                Dollar
          Credits Claimed                                               Volume                   Totals
          Earned Income Tax*                                            698,383          $1,106,534,596
          Child Tax*                                                    225,776            $224,420,861
          Additional Child Tax*                                         308,676            $358,946,402
          Retirement Savings Contributions*                             195,416              $33,887,567
          Education                                                     112,415              $83,915,454
          Child and Dependent Care*                                       46,910             $22,829,924
          Other (Adoption, Gas, and Health Coverage)                       5,378              $7,801,530
           * = This credit was included in our test scenarios.


          Income                            Tax Return Volume                    Dollar Amounts
          Average Income2                        2,888,493                            $23,111

          Average Other Income3                     132,400                             $2,691

          Source: Our analysis of tax returns prepared at the Volunteer Program sites as of April 17, 2013.




2
    Average Income was determined using computer software to calculate the average total income of all taxpayers.
3
    Other Income is a line item on Form 1040 series tax returns that is not reported on any tax schedules.
                                                                                                              Page 25
                       Inconsistent Adherence to Quality Requirements
                          Continues to Affect the Accuracy of Some
                           Tax Returns Prepared at Volunteer Sites



                                                                           Appendix IX

  Treasury Inspector General for Tax Administration
      Audit Reports on the Volunteer Tax Return
                Preparation Program

TIGTA, Ref. No. 2004-40-154, Improvements Are Needed to Ensure Tax Returns Are Prepared
Correctly at Internal Revenue Service Volunteer Income Tax Assistance Sites (Aug. 2004).
TIGTA, Ref. No. 2006-40-004, Significant Improvements Have Been Made in the Oversight of
the Volunteer Income Tax Assistance Program, but Continued Effort Is Needed to Ensure the
Accuracy of Services Provided (Nov. 2005).
TIGTA, Ref. No. 2006-40-125, Oversight and Accuracy of Tax Returns Continue to Be
Problems for the Volunteer Income Tax Assistance Program (Aug. 2006).
TIGTA, Ref. No. 2007-40-137, Accuracy of Volunteer Tax Returns Is Improving, but Procedures
Are Often Not Followed (Aug. 2007).
TIGTA, Ref. No. 2008-40-177, Accuracy of Volunteer Tax Returns Continues to Improve, but
Better Controls Are Needed to Ensure Consistent Application of Procedures and Processes
(Sept. 2008).
TIGTA, Ref. No. 2009-40-128, Ensuring the Quality Assurance Processes Are Consistently
Followed Remains a Significant Challenge for the Volunteer Program (Sept. 2009).
TIGTA, Ref. No. 2010-40-109, Improvements to the Volunteer Program Are Producing Positive
Results, but Further Improvements Are Needed to the Quality Assurance Process (Sept. 2010).
TIGTA, Ref. No. 2011-40-094, Accuracy of Tax Returns, the Quality Assurance Processes, and
Security of Taxpayer Information Remain Problems for the Volunteer Program (Aug. 2011).
TIGTA, Ref. No. 2012-40-088, Ensuring the Quality Review Process Is Consistently Followed
Remains a Problem for the Volunteer Program (Jul. 2012).




                                                                                    Page 26
        Inconsistent Adherence to Quality Requirements
           Continues to Affect the Accuracy of Some
            Tax Returns Prepared at Volunteer Sites



                                                  Appendix X

Management’s Response to the Draft Report




                                                         Page 27
Inconsistent Adherence to Quality Requirements
   Continues to Affect the Accuracy of Some
    Tax Returns Prepared at Volunteer Sites




                                                 Page 28
Inconsistent Adherence to Quality Requirements
   Continues to Affect the Accuracy of Some
    Tax Returns Prepared at Volunteer Sites




                                                 Page 29
